FAIRWORKPC |

EMPLOYMENT LAW

August 13, 2021
Scott S. Harris, Clerk of the Court
Office of the Clerk
United States Supreme Court
1 First Street, N.E.
Washington, DC 20543
Re:

Gordon College, et al. v. Margaret DeWeese-Boyd, No. 21-145

Dear Mr. Harris:
Under Supreme Court Rule 30.4, Respondent Margaret DeWeese-Boyd respectfully
requests a 60-day extension to file her brief in opposition to Gordon College’s petition for
certiorari, making the brief due not later than November 1, 2021. Counsel for the
petitioners have authorized us to state that petitioners consent to this motion. An
extension is warranted for several reasons.
First, additional time is needed to prepare a useful and effective brief that adequately
presents the issues for the Court’s consideration. Respondent is engaging additional
counsel to appear before this Court. An extension will give them sufficient time to become
familiar with the case so that they may provide adequate assistance in preparation of the
brief in opposition. Additionally, respondent anticipates that amici will file briefs in
support of petitioners, so the additional time will allow respondent’s counsel to consider
those arguments carefully and respond to them as warranted.
Second, the undersigned has significant deadlines in the coming two months, including an
opposition to a motion to dismiss due on August 16, Muiruri et al. v. Nizhoni Health
Systems, LLC, Middlesex Cty. Case No. 2181-cv-1103 (Mass. Super.); an opposition to a
motion to dismiss due on September 3, Niiranen et al. v. Carrier One, Inc. et al., Case No.
1:20-cv-06781 (N.D. Ill.); and a one-week trial beginning on October 4, Estate of Patrick
Russi v. East Side Enterprises, LLC, Case No. 1:19-cv-12377 (D. Mass.).
Third, given the ongoing COVID-19 pandemic, additional time is necessary. Although the
Court revoked its COVID scheduling order, the recent rise in the Delta variant is
617 - 6 07 - 3 26 0
W W W. FA I R W O RK L AW. C O M
19 2 S O U T H S T R E E T, S U I T E 45 0
B O S TO N , M A 0 2111

preventing counsel’s scheduled return to the office and interfering with the operations of
support staff, giving rise to the same difficulties of remote work as were prevalent when
the Court’s COVID order was in place.
Fourth, an extension will not prejudice Gordon College. When the Massachusetts Supreme
Judicial Court decided this case, this Court’s COVID scheduling order was still in effect.
That order granted the equivalent of the standard 90 days to file a petition plus a 60-day
extension. The College took the full 150 days to file its petition. DeWeese-Boyd asks for a
comparable 60-day extension.

Sincerely,
/s/ Hillary Schwab
Hillary Schwab
Fair Work P.C.
cc: Counsel of record

